App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-50321
-----------------------------------------------------------------------

AMERICAN STEWARDS OF LIBERTY;
CHARLES SHELL; CHERYL SHELL; WALTER
SIDNEY SHELL MANAGEMENT TRUST;
KATHRYN HEIDEMANN; ROBERT V. HARRISON,
Plaintiffs
JOHN YEARWOOD; WILLIAMSON COUNTY,
TEXAS,
Intervenor Plaintiffs - Appellants - Cross
Appellees,
v.
DEPARTMENT OF INTERIOR; UNITED STATES
FISH AND WILDLIFE SERVICE; DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF THE
INTERIOR, in his official capacity; MARGARET E.
EVERSON, in her official capacity as Director of the
U.S. Fish and Wildlife Service; AMY LUEDERS, in
her official capacity as the Southwest Regional
Director of the U.S. Fish and Wildlife Service,
Defendants - Appellees-Cross Appellants
CENTER FOR BIOLOGICAL DIVERSITY; TRAVIS
AUDUBON; DEFENDERS OF WILDLIFE,
Intervenor Defendants - Appellees

App. 2
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Western District of Texas.
-----------------------------------------------------------------------

(Filed May 29, 2020)
Before: STEWART, DENNIS, and HAYNES, Circuit
Judges.
PER CURIAM.
The Bone Cave harvestman is a small arachnid
known to live only in central Texas that is currently
included on the federal endangered species list. In
2014, a non-profit group and several individuals, including John Yearwood, filed a petition with the U.S.
Fish and Wildlife Service (“FWS”) calling for the Bone
Cave harvestman to be delisted because it does not currently meet the standards for an endangered species.
After reviewing the petition, FWS issued a negative
“90-day finding,” which is a summary denial based on
the agency’s conclusion that the petition did not present sufficient scientific or commercial evidence indicating that delisting was warranted.
Some of the petitioners (collectively, “the Original
Plaintiffs”)—but not Yearwood—filed an action in federal district court under the Administrative Procedures Act (“APA”), challenging FWS’s negative 90-day
finding as arbitrary and capricious. While the case was
pending, the district court allowed Yearwood and Williamson County (collectively, “the Intervening Plaintiffs”) to intervene to separately argue that federal

App. 3
regulation of the purely intrastate species is unconstitutional because it exceeds Congress’s power under the
Commerce and Necessary and Proper Clauses.
The district court ultimately rejected the InterveningPlaintiffs’ constitutional arguments but granted summary judgment to the Original Plaintiffs, concluding
that FWS had erred by demanding a higher quantum
of evidence than was statutorily required for a 90-day
finding. The court vacated and remanded FWS’s
negative 90-day finding, and FWS has since issued a
positive 90-day finding and begun a more substantial
12-month review to determine whether the Bone Cave
harvestman should be delisted. The Intervening Plaintiffs now appeal the denial of their motion for summary judgment, arguing that this court retains
jurisdiction to hear their separate constitutional arguments for delisting the Bone Cave harvestman. Because we find that their appeal is alternatively moot or
barred by sovereign immunity, we dismiss the appeal
for lack of jurisdiction.
I.
A.
Texella reyesi, or the Bone Cave harvestman, is a
tiny, pale orange, eyeless arachnid1 known to live only
in caves within a 150-square-mile stretch of Travis and
Williamson Counties in Texas. FWS first added the
1

Although harvestmen bear a superficial resemblance to spiders, they are actually a distinct order of arachnids known as
Opiliones.

App. 4
arachnid to the endangered species list in 1988 as the
Bee Creek Cave harvestman, see 53 Fed. Reg. 36,029
(Sept. 16, 1988), then listed the Bone Cave harvestman
separately in 1993 after further studies revealed that
the population was composed of two distinct species, 58
Fed. Reg. 43,818 (Aug. 18, 1993). The inclusion of the
Bone Cave harvestman on the endangered species list
makes it a federal crime to “take” the species or disturb
its habitat. See 16 U.S.C. § 1538(a)(1)(B); 50 C.F.R.
§ 17.21(c). A “take” is defined as “harassing, harming,
pursuing, hunting, shooting, wounding, killing, trapping, capturing, or collecting” members of the species
“or attempting to engage in any such conduct.” 16
U.S.C. § 1532(19).
In June 2014, the non-profit advocacy group American Stewards of Liberty, Yearwood, and several other
individuals that owned land inhabited by Bone Cave
harvestmen collectively filed with FWS a “Petition to
delist the Bone Cave harvestman (Texella reyesi) in accordance with Section 4 of the Endangered Species Act
of 1973.” The petition argued that the Bone Cave harvestman should no longer be considered endangered
because scientists had discovered 166 new localities
containing the species since the time of the original
listing; many of the localities were protected by other
federal, state, and local regulations; and development
and other human activity in the vicinity of the localities had been shown to be less harmful to Bone Cave
harvestman populations than was previously thought.
A year later, FWS issued a 90-day finding on the
petition, which is a preliminary ruling required under

App. 5
16 U.S.C. § 1533(b)(3)(A) regarding whether further
consideration of a petition is warranted. 80 Fed. Reg.
30,990 (June 1, 2015). FWS determined that, although
population data on the species was likely impossible to
obtain due to much of the population’s residing in
caves that are inaccessible to humans, the petition was
deficient because it did not include population “trend
analysis to indicate that this species can withstand the
threats associated with development or climate change
over the long term.” Id. Accordingly, FWS concluded
that no further review was necessary and denied the
petition. Id.
B.
In December 2015, the Original Plaintiffs filed an
action challenging FWS’s negative 90-day finding in
the U.S. District Court for the Western District of Texas
under Section 702 of the APA, 5 U.S.C. § 702. The complaint argued that FWS had applied an inappropriately heightened standard at the 90-day review stage,
demanding more than the regulatorily required
“amount of information that would lead a reasonable
person to believe that the measure proposed in the petition may be warranted.” 50 C.F.R. § 424.14(b)(1).
Shortly thereafter, the Intervening Plaintiffs filed a
motion to intervene, seeking a declaration that federal
regulation of the Bone Cave harvestman is unconstitutional and a permanent injunction preventing FWS
from enforcing the prohibition on Bone Cave harvestman takes in addition to vacatur of the 90-day finding.
The district court granted the Intervening Plaintiffs

App. 6
permissive intervention under FEDERAL RULE OF CIVIL
PROCEDURE 24(b)(1)(B), stating without elaboration
that their claims shared common questions of fact with
those of the Original Plaintiffs.
The parties filed cross motions for summary judgment, and, on March 28, 2019,2 the district court entered an order granting summary judgment to the
Original Plaintiffs and disposing of all parties’ claims.
Am. Stewards of Liberty v. Dep’t of the Interior, 370
F. Supp. 3d 711 (W.D. Tex. 2019). The court first determined that, by requiring population data that was admittedly unavailable, FWS had not made its decision
based on the best available data as was statutorily required. Id. at 727-28. The court found that the delisting
petition had presented sufficient data that a reasonable person would conclude that delisting may be warranted and it thus met the standard for a positive
90-day finding and a more substantial 12-month review. Id. The district court therefore vacated FWS’s
negative 90-day finding and remanded the case for further consideration. Id. at 728-29. FWS accepted the remand and has since issued a positive 90-day finding,
2

Prior to the motions for summary judgment, FWS requested that the matter be returned to the agency for consideration of additional materials that it had inadvertently omitted
during its initial decision, and the district court granted the motion. Several months later, FWS issued a new 90-day finding that
mirrored the reasoning of the first, again concluding that the petition had failed to present substantial scientific and commercial
data indicating delisting was warranted. 82 Fed. Reg. 20,861
(May 4, 2017). Subsequently, the Original Plaintiffs and the Intervening Plaintiffs amended their respective complaints to instead challenge the new 90-day finding.

App. 7
see 84 Fed. Reg. 54,542 (Oct. 10, 2019), and this aspect
of the district court’s ruling is not at issue in this appeal.
Turning to the Intervening Plaintiffs’ motion for
summary judgment, the district court observed that
the general six-year statute of limitations for civil actions against the United States applies to claims
brought under the APA. Am. Stewards of Liberty, 370
F. Supp. 3d at 731 (citing 28 U.S.C. § 2401(a)). The
court reasoned that, under this court’s decision in
Dunn-McCampbell Royalty Interest, Inc. v. National
Park Service, 112 F.3d 1283, 1286 (5th Cir. 1997), the
law distinguishes between facial challenges to agency
regulations and challenges to a subsequent agency action applying the regulation for purposes of determining when an APA claim accrues. Am. Stewards of
Liberty, 370 F. Supp. 3d at 731. A naked facial claim
alleging that the regulation exceeds the agency’s statutory or constitutional authority accrues upon the
agency’s publishing the regulation, the court continued, and such a challenge thus must be brought within
six years thereof. Id. By contrast, a challenge to a specific application of the regulation accrues at the time
of the agency action applying the regulation to the
plaintiff, the district court explained, including an
agency’s denial of a plaintiff ’s petition to rescind the
regulation or its issuance of an order requiring the
plaintiff to comply with the regulation. Id.
Applying this framework to the Intervening Plaintiffs’ claims, the court determined that Yearwood’s
challenge to FWS’s constitutional authority to regulate

App. 8
the Bone Cave harvestman was timely because he was
a signatory to the delisting petition and therefore could
demonstrate a recent final agency action applying the
regulation to him personally. Id. at 731-32. Williamson
County was not a party to the petition, however, and
its claim was therefore time-barred because it was not
brought within six years of the original listing of the
species, the court concluded. Id. at 732.
As for the merits of Yearwood’s challenge, the
court found that the Fifth Circuit had already specifically determined in GDF Realty Investments, Ltd. v.
Norton, 326 F.3d 622 (5th Cir. 2003), that, because regulation of the Bone Cave harvestman is an essential
part of the economic scheme established by the Endangered Species Act, it does not exceed Congress’s power
under the Commerce Clause. Am. Stewards of Liberty,
370 F.Supp. 3d at 732-33. Accordingly, the court denied
the Intervening-Plaintiffs’ motion for summary judgment. Id. at 735.
The Intervening Plaintiffs timely appealed. While
the appeal was pending before this court, the Government filed a motion to dismiss for lack of jurisdiction.
The Government argued, inter alia, that the appeal
was moot because the challenged agency action that
formed the basis of the Intervening-Plaintiffs’ claims
had been vacated. A motions panel of this court ordered the motion carried with the case.

App. 9
II.
This Court is “obligated to determine de novo”
whether it has jurisdiction over an appeal. In re
Scruggs, 392 F.3d 124, 128 (5th Cir. 2004). Here, the
Intervening Plaintiffs ultimately seek a judicial ruling
as to the constitutionality of FWS’s regulation of activities affecting the Bone Cave harvestman. However, it
is well settled that “[t]he federal courts established
pursuant to Article III of the Constitution do not render advisory opinions”; “concrete legal issues, presented in actual cases, not abstractions are requisite.”
Golden v. Zwickler, 394 U.S. 103, 108 (1969) (quoting
United Public Workers of American (C.I.O.) v. Mitchell,
330 U.S. 75, 89 (1947)). Thus, the Intervening Plaintiffs
must allege an actual or imminent injury that is traceable to a specific action by FWS that is redressable by
relief the court is authorized to grant. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).
In cases against the federal government and its
instrumentalities, this inquiry is intertwined with
questions of sovereign immunity. “[T]he United States
is immune from suit unless it consents, and the terms
of its consent circumscribe our jurisdiction.” DunnMcCampbell Royalty Interest, Inc. v. National Park Service, 112 F.3d 1283, 1287 (5th Cir. 1997). Thus, the Intervening Plaintiffs may only bring suit against FWS
and the other federal defendants if they are able to
trace their alleged injury to an action by the defendants that federal law allows to be challenged, and even
then only if the action is brought within the time period that federal law allows for such a suit. In other

App. 10
words, a “failure to sue the United States within the
limitations period” for a specific cause of action “is not
merely a waivable defense. It operates to deprive
federal courts of jurisdiction.” Id. (citing Sisseton–
Wahpeton Sioux Tribe v. United States, 895 F.2d 588,
592 (9th Cir. 1990)).
By including a mechanism in the APA for a person
“adversely affected or aggrieved by agency action” to
obtain judicial review, Congress has waived sovereign
immunity specifically for challenges to final agency
decisions. See id.; 5 U.S.C. § 702. To fall within this
waiver, however, a challenge must be brought within
six years of the final agency action allegedly causing a
plaintiff ’s injury.3 Dunn-McCampbell, 112 F.3d at
1287. This means that, to bring a challenge to an original agency action adopting a regulation like FWS’s
listing of the Bone Cave harvestman, plaintiffs must
bring their claims within six years of the publication of
the rule—here, FWS’s 1988 decision to add the harvestman to the endangered species list (or at least the
1993 decision to list harvestman as a separate species).4 See id.

3

As the district court noted, because the APA does not contain its own statute of limitations, the general six-year statute of
limitations for civil suits against the United States applies to APA
claims. Dunn-McCampbell, 112 F.3d at 1286 (citing 28 U.S.C.
§ 2401(a)).
4
This is the only time in which a plaintiff may bring a challenge to a regulation based on the procedures by which it was
adopted. See Pub. Citizen v. Nuclear Regulatory Comm’n, 901
F.2d 147, 152 (D.C. Cir. 1990).

App. 11
This court held in Dunn-McCampbell, however,
that a plaintiff who misses this window may still obtain effective review of the regulation by instead bringing a challenge within six years of a later final agency
action that applies the regulation to the plaintiff. See
id. (“[A]n agency’s application of a rule to a party creates a new, six-year cause of action to challenge to [sic]
the agency’s constitutional or statutory authority.” (citing Texas v. United States, 749 F.2d 1144, 1146 (5th Cir.
1985); Wind River Mining Corp. v. United States, 946
F.2d 710, 715 (9th Cir. 1991); Pub. Citizen v. Nuclear
Regulatory Comm’n, 901 F.2d 147, 152 (D.C. Cir.
1990))). An agency applies a regulation to a party when
it, for example, issues an order requiring a plaintiff to
comply with the regulation, imposes a fine or other
sanction against the plaintiff for violating the regulation, or denies a plaintiff ’s petition to rescind the regulation. See id.
In the present case, the Intervening Plaintiffs argue that, by denying the petition to delist the Bone
Cave harvestman, FWS engaged in a new final agency
action that reaffirmed the validity of the listing and
restarted the clock on the six-year statute of limitations to challenge the listing. As an initial matter, it is
not totally clear that the delisting petition at issue in
this case was equivalent to the kind of petition to rescind a regulation contemplated in Dunn-McCampbell.
16 U.S.C § 1533(a)(1) lays out the five substantive, factbased factors that FWS may consider when choosing to
list or delist a species. The petition in this case argued
that, under these factors, the Bone Cave harvestman

App. 12
either never warranted listing in the first place or had
recovered sufficiently enough that listing was no
longer warranted. The petition did not argue that the
listing was unconstitutional, and, had the delisting petition been granted, the effect of delisting the Bone
Cave harvestman would likely not be the same as rescinding the original listing on constitutional grounds.
For example, individuals who violated the prohibition
on taking Bone Cave harvestmen during the time the
species was listed would still be prosecutable if the species were delisted on statutory grounds, but they likely
would not be prosecutable if the original listing were
rescinded as unconstitutional. Cf. United States v.
Goodner Bros. Aircraft, 966 F.2d 380, 384-85 (8th Cir.
1992) (holding that convictions based on violations of
invalidated regulation must be reversed because regulation was “void ab initio”). Thus, it is not totally clear
that the denial of the delisting petition opened the
Bone Cave harvestman listing to attack on constitutional grounds in the first place. See National Ass’n of
Reversionary Property Owners v. STB, 158 F.3d 135,
141-42 (D.C. Cir. 1998) (discussing limits on when a
subsequent agency decision “reopens” a previous decision to challenge).
In any event, assuming the Intervening Plaintiffs
are correct that the delisting petition is equivalent to
a petition to rescind the Bone Cave harvestman listing,
the district court’s vacatur of FWS’s denial of the petition nevertheless renders their appeal nonjusticiable
for two reasons. First, even if the Intervening Plaintiffs
were correct that the denial of the petition simply

App. 13
restarts the clock and allows a plaintiff to challenge
the original listing of the species, the petition would no
longer be “denied” following the vacatur ordered by the
district court, and the clock would therefore no longer
be restarted. See Envtl. Def. v. Leavitt, 329 F. Supp. 2d
55, 64 (D.D.C. 2004) (noting that “vacatur restores the
status quo before the invalid [agency action] took effect”).
On a more basic level, however, the Intervening
Plaintiffs misconstrue the holding of Dunn-McCampbell
and the cases that it relied upon. A final agency action
that applies a regulation to a particular plaintiff does
not restart the clock on a challenge to the original enactment of the regulation. Rather, Dunn-McCampbell
“merely stand[s] for the proposition that an agency’s
application of a rule to a party creates a new, six-year
cause of action” to challenge that specific application of
the rule. 112 F.3d at 1287. It is incidental that the new
cause of action implicates the same question of law—
whether the regulation is valid—as a challenge to the
original listing. Following the vacatur, there is no new
agency action to challenge, and in the absence of “some
[new] direct, final agency action involving the particular plaintiff,” the Intervening Plaintiffs may trace their
alleged injuries only to FWS’s original listing of the
Bone Cave harvestman, to which challenges are jurisdictionally time-barred.5 Id.
5

Specifically, the Intervening Plaintiffs allege that they are
burdened by the continued listing of the Bone Cave harvestman
because they, for example, cannot develop their property without
obtaining take permits and must take costly affirmative steps to

App. 14
The Intervening Plaintiffs argue that vacatur and
remand does not moot an appeal when a plaintiff has
requested and been denied additional relief beyond the
vacatur because the plaintiff has received only “half a
loaf.” However, the cases the Intervening Plaintiffs rely
on deal exclusively with the special statutory judicial
review provision of the Social Security Act, which permits a court to “modify[ ] or revers[e] the decision of the
[agency] with or without remanding the cause for a rehearing.” Forney v. Apfel, 524 U.S. 266, 269 (1998)
(quoting 42 U.S.C. § 405(g)); Bordelon v. Barnhart, 161
F. App’x 348, 351 (5th Cir. 2005) (unpublished). No
comparable provision exists in the APA or Endangered
Species Act that would have permitted the district
court to modify or outright reverse FWS’s 90-day finding. And, even if the district court was empowered to
reverse FWS’s decision, the result would not be the
delisting of the Bone Cave harvestman, but rather
simply a positive 90-day finding—an outcome that has
already come to pass and that does not redress the Intervening Plaintiffs’ alleged injuries.
In sum, if the Intervening Plaintiffs’ claim is construed as a challenge to the denial of the delisting petition, their appeal is moot because the denial has been
vacated and it therefore can no longer be the cause of
any of the Intervening-Plaintiffs’ alleged injuries. If it
is instead viewed as a challenge to FWS’s original listing of the Bone Cave harvestman, the challenge is
preserve the species. These alleged continuing injuries are a result of FWS’s original listing of the Bone Cave harvestman, not of
FWS’s no-longer-effective denial of the delisting petition.

App. 15
barred by sovereign immunity because it was not
brought within the six-year statute of limitations period applicable to claims brought under the APA. We
therefore conclude that we lack jurisdiction to resolve
this appeal.6
*

*

*

Based on the foregoing, we DISMISS the appeal
for lack of jurisdiction.

6
Because mootness and/or sovereign immunity are independently sufficient to deprive this court of jurisdiction, we do not
reach the Government’s alternative arguments that the remand
was not a final judgment subject to appeal, that the APA does not
provide a jurisdictional basis for the relief the Intervening Plaintiffs seek, that the district court erred by allowing the Intervening
Plaintiffs to intervene, and that the district court’s determination
as to the constitutionality of the Bone Cave harvestman listing
was correct on the merits.

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
AMERICAN STEWARDS OF
LIBERTY, CHARLES SHELL,
CHERYL SHELL, WALTER
SIDNEY SHELL MANAGEMENT TRUST, KATHRYN
HEIDEMANN, ROBERT V.
HARRISON, SR., JOHN
YEARWOOD, AND WILLIAMSON COUNTY, TEXAS,
PLAINTIFFS,

§
§
§
§
§
§
§
§
§
§
§
JOHN YEARWOOD AND
§
WILLIAMSON COUNTY,
§
TEXAS,
§ CAUSE NO.
PLAINTIFF§ 1:15-CV-1174-LY
INTERVENORS,
§
V.
§
DEPARTMENT OF THE INTE- §
RIOR, UNITED STATES FISH §
§
AND WILDLIFE SERVICE,
SALLY JEWELL, DANIEL M. §
ASHE, BENJAMIN N. TUGGLE, §
§
CENTER FOR BIOLOGICAL
§
DIVERSITY, TRAVIS AUDU§
BON, AND DEFENDERS OF
§
WILDLIFE,
§
DEFENDANTS,
§

App. 17
CENTER FOR BIOLOGICAL
DIVERSITY, DEFENDERS OF
WILDLIFE, AND TRAVIS
AUDUBON,
DEFENDANTINTERVENORS.

§
§
§
§
§
§

MEMORANDUM OPINION AND ORDER
(Filed Mar. 28, 2019)
Before the court in the above-styled and numbered
cause are Plaintiffs’ Motion for Summary Judgment
filed October 5, 2017 (Dkt. No. 132), Plaintiff-Intervenors’
Motion for Summary Judgment filed October 10, 2017
(Dkt. No. 133), Amicus-Curiae Brief of Mountain States
Legal Foundation in Support of Plaintiff-Intervenors’
Motion for Summary Judgment filed October 16, 2017
(Dkt. No. 136), Brief of Texas as Amicus Curiae in Support of Intervenor-Plaintiffs’ Motion for Summary
Judgment filed October 6, 2017 (Dkt. No. 137), Federal
Defendants’ Cross Motion for Summary Judgment &
Opposition to Plaintiffs’ Motion for Summary Judgment filed December 15, 2017 (Dkt. Nos. 142 & 144),
Federal Defendants’ Cross-Motion for Summary Judgment and Opposition to Plaintiff-Intervenors’ Motion
for Summary Judgment filed December 15, 2017 (Dkt.
Nos. 145 & 146), Defendant-Intervenors’ Cross-Motion
for Summary Judgment and Opposition to Plaintiffs’
Motion for Summary Judgment filed December 21,
2017 (Mt. No. 147 & 148), Federal Defendants’ Response to Amici Curiae Briefs of Mountain States Legal Foundation and Texas filed December 22, 2017

App. 18
(Dkt. Nos. 149 & 150), Defendant-Intervenors’ CrossMotion for Summary Judgment and Opposition to
Plaintiff-Intervenors’ Motion for Summary Judgment
filed December 22, 2017 (Dkt. Nos. 151 & 152), Plaintiff-Intervenors’ Combined Reply in Support of Motion
for Summary Judgment and Opposition to Federal Defendants and Defendant-Intervenors’ Cross-Motions
for Summary Judgment filed January 19, 2018 (Mt.
Nos. 154 & 155), Plaintiffs’ Reply to Responses to
Plaintiffs’ Motion for Summary Judgment filed January 19, 2018 (Mt. No. 156), Plaintiffs’ Combined Response in Opposition to Defendants’ Cross-Motion for
Summary Judgment and Opposition to Defendant-Intervenors’ Cross Motion for Summary Judgment filed
January 19, 2018 (Dkt. No. 157), Federal Defendants’
Reply in Support of Their Motion for Summary Judgment Against Plaintiff-Intervenors filed February 16,
2018 (Dkt. No. 158), Federal Defendants’ Opposed Motion to Strike Four Exhibits Attached to Plaintiffs’ Reply Brief filed February 16, 2018 (Dkt. No. 159),
Federal Defendants’ Reply In Support of Their Motion
for Summary Judgment Against Plaintiffs filed February 2, 2018 (Mt. No. 160), Defendant-Intervenors’ Reply in Support of Their Cross-Motion for Summary
Judgment and in Opposition to Plaintiff-Intervenors’
Motion for Summary Judgment filed February 16,
2018 (Dkt. Nos. 161 & 162), Plaintiffs’ Opposition to
Federal Defendants’ Motion to Strike filed February
23, 2018 (Dkt. No. 163), Federal Defendants’ Reply in
Support of Their Opposed Motion to Strike Four Exhibits Attached to Plaintiffs’ Reply Brief filed February
27, 2018 (Dkt. No. 165), Plaintiff-Intervenors’ Notice of

App. 19
Supplemental Authority filed December 3, 2018 (Dkt.
No. 172), Response to Plaintiff-Intervenors’ Notice of
Supplemental Authority filed December 10, 2018 (Dkt.
No. 173), and Defendant-Intervenors’ Response to
Plaintiff-Intervenors’ Notice of Supplemental Authority filed December 10, 2018 (Dkt. No. 174). On March
2, 2018, the court conducted a hearing on the motions
at which all parties were represented by counsel. Having reviewed and considered the motions, responsive
and supplemental filings, arguments of counsel, and
applicable law, the court renders the following order.
I.

BACKGROUND

The bone cave harvestman (“harvestman”) is a
tiny, pale, orange, eyeless, almost invisible, spider-like
species that spends its entire life underground. It derives its nutrition from bugs, moisture, and other nutrients that filter down from the surface. It is an
elusive spider known to inhabit only Travis and Williamson Counties, Texas and does not often reveal itself to even the most skilled observer. Because of the
harvestman’s limited population and fragile nature,
the United States Fish and Wildlife Service (“the Service”) listed the species as endangered in 1993. This
case arises out of Plaintiffs (“the Stewards”)1 and
1

When a case presents competing claims of varying parties,
it is often hard to keep the claims of an individual party in focus.
And using the legal designation of the parties is often hard for the
reader to follow. Here, certain of the parties may be grouped with
regard to issues where their interests do not diverge. For simplicity, the court will refer to the parties as follows, unless otherwise
noted or needed for context: Plaintiffs American Stewards of

App. 20
Plaintiff-Intervenors’ (“Yearwood”) request to remove
the harvestman from the endangered-species list.
A. THE ENDANGERED SPECIES ACT
Congress enacted the Endangered Species Act in
1973 (the “Act”) to “provide a means whereby the ecosystems upon which endangered species . . . depend
may be conserved” and to “provide a program for the
conservation of . . . endangered species.” 16 U.S.C.
§ 1531(b). A species is “endangered” if it “is in danger
of extinction throughout all or a significant portion
of its range.” Id. at § 1532(6). The Service is responsible
for determining whether to list a species as endangered. Id. at § 1533(a)(1). It is also responsible for
determining whether to delist a species. Id. at
§ 1533(a)(2)(B).
“[I]nterested person[s]” may petition the Service to
change the status of a species, including petitioning
Liberty, Charles Shell, Cheryl Shell, Walter Sidney Shell Management Trust, Kathryn Heidemann, Robert V. Harrison, Sr.,
John Yearwood, and Williamson County, Texas will be collectively referred to as “The Stewards.” Plaintiff-Intervenors John
Yearwood and Williamson County, Texas will be collectively referred to as “Yearwood.” Defendant-Intervenors Center for Biological Diversity, Defenders of Wildlife, and Travis Audubon will
be collectively referred to as ‘The Center.”
As the interests of Plaintiffs, American Stewards of Liberty,
Charles Shell, Cheryl Shell, Walter Sidney Shell Management
Trust, Kathryn Heidemann, Robert V. Harrison, Sr., John Yearwood, and Williamson County, Texas, do not diverge, the court
will refer to Plaintiffs collectively as “the Stewards,” unless otherwise noted or as needed for context.

App. 21
the Service to remove a species from the endangeredspecies list. Id. at § 1533(b)(3)(A). Within 90 days of the
filing of a petition, the Service must make a finding
(“90-day finding”) as to whether the petition “presents
substantial scientific or commercial information indicating that the petitioned action may be warranted.”
Id. Though “substantial scientific and commercial information” may seem like a high bar, id., the Service’s
regulations indicate otherwise, defining substantial information as only “that amount of information that
would lead a reasonable person to believe that the
measure proposed in the petition may be warranted.”
50 C.F.R. § 424.14(b)(1) (2014).
The Service must evaluate a petition for a “detailed narrative justification” for the requested delisting and a description of the “numbers and distribution
of the species involved,” “any threats faced by the species,” and whether the petition “[p]rovides information
regarding the status of the species over all or a significant portion of its range.” Id. at § 424.14(b)(2) (2014).
The petition need only be “based on available information.” Id. The Service must publish its findings in a
“listing determination” based on a consideration of five
factors:
(A) the present or threatened destruction,
modification, or curtailment of [the species’] habitat or range;
(B) overutilization for commercial, recreational, scientific, or educational purposes;
(C) disease or predation;

App. 22
(D) the inadequacy of existing regulatory
mechanisms; or
(E) other natural or manmade factors affecting [the species’] continued existence.
16 U.S.C. § 1533(a)(1); see also 50 C.F.R. § 424.11(c), (d)
(2014). Listing determinations must be made “solely on
the basis of the best scientific and commercial data
available.” 16 U.S.C. § 1533(b)(1)(A).
If the Service determines that delisting may be
warranted, it will undertake a second more searching
12-month review of the status of the species to determine whether delisting action “is” or “is not warranted.” 16 U.S.C. § 1553(b)(3)(B) (emphases added).
Under the implementing regulations, delisting is warranted where:
the best scientific and commercial data
available . . . substantiate that the species is
neither endangered nor threatened for one or
more of the following reasons:
(1)

Extinction . . .

(2) Recovery . . . A species may be delisted on the basis of recovery only if the best
scientific and commercial data available indicate that it is no longer endangered or threatened.
(3) Original data for classification in error. Subsequent investigations may show that
the best scientific or commercial data available when the species was listed, or the interpretation of such data, were in error.

App. 23
50 C.F.R. § 424.11(d)(1)-(3) (2014). If the Service determines that a petition presents substantial scientific or
commercial information indicating that listing or
delisting may be warranted, the Service is required to
make a finding within 12 months that (1) the petitioned action is not warranted; (2) the petitioned action
is warranted; or (3) the petitioned action is warranted
but precluded by other higher-priority actions. 16
U.S.C. § 1533(b)(3)(B).
B.

THE HARVESTMAN’S EARLY LISTING HISTORY

In 1988, the Service determined that five species
of karst invertebrate should be protected by the Act,
including the bee creek cave harvestman. 53 Fed. Reg.
36,029-01 (Sept. 16, 1988). At that time, the bee creek
cave harvestman was known to exist only in five or six
caves in Travis and Williamson Counties. The Service
found in its 1988 listing that the gravest threat to
these karst invertebrates was habitat destruction and
modification due to urbanization. The Service posited
that residential, commercial, and industrial development affected the entire known range of the species.
Potential threats to the species from development activities included cave collapse or filling; alteration of
drainage patterns; alteration of surface plant and
animal communities; contamination of the habitat, including groundwater, from nearby agricultural disturbance, pesticides, fertilizers, and other runoff; and
increased human visitation and vandalism. The Service also found that the species was threatened because no laws protected the species or their habitats.

App. 24
It was not until 1993 that the Service determined
that bee creek cave harvestman is actually two species,
the bee creek harvestman and the bone cave harvestman. The Service formally extended the 1988 listing to
include the bone cave harvestman in 1993. 58 Fed. Reg.
43,818-01 (Aug. 18, 1993). At that time, the Service
found that both species continued to face the same
threats identified in the original 1988 listing determination, including imperiled habitats due to urbanization. 58 Fed. Reg. at 43,819. In 1993, the Service
received and denied the first petition to delist the
harvestman. So began a 25-year process to delist the
harvestman as more locations of the spider were discovered.
In 1994, the Service completed a Karst Invertebrate Recovery Plan for Travis and Williamson Counties, which included recovery criteria for the
harvestman. The Service examined the threats facing
the species, including threats posed by urbanization to
the harvestman’s habitat. At that time, the Service
noted the harvestman’s potential for complete recovery
and delisting of the species was uncertain. The plan
identifies steps and benchmarks that must be met before the harvestman can be reclassified from endangered to threatened.2

2

The plan requires establishing “karst-fauna regions” and
“karst-fauna-area preserves” with the following specifications: (1)
distinct areas known to support one or more locations of a listed
karst species; (2) that possess geologic and hydrologic features
that create barriers to the movement of water, contaminants, and
troglobitic fauna; and (3) that exist far enough apart from each

App. 25
In 2009, the Service completed a five-year speciesstatus review, as required by the Act. 16 U.S.C.
§ 1533(c)(2)(A). The purpose of such review is to determine whether a species’ status has changed since it
was last evaluated, including whether it should be delisted. Id.; 50 C.F.R. § 424.21 (2014). The Service determined that no change in listing status was warranted
at that time.
C. 2014 PETITION AND 2017 FINDING
A petition to delist a species must provide available information about past and present population figures and distribution of an endangered species, threats
faced by the species, and information about the status
of the species over a significant portion of its range. 50
C.F.R. § 424.14(b)(2) (2014). In 2014, the Stewards petitioned the Service to remove the harvestman from
the endangered-species list. The petition presented evidence about the harvestman that corresponded to
each of the statutory factors and contended that delisting was warranted for three primary reasons. First, the
other that, if a catastrophic event occurs in one area preserve, it
would not destroy any other area preserve occupied by the species. Under the recovery plan, reclassification would be possible if
three karst-fauna-area preserves within each karst fauna-region
in a species’ range are protected in perpetuity. If fewer than three
karst-fauna-area preserves exist within a given karst-fauna region, then all karst-fauna-area preserves within that region
should be protected. Before the Service will reclassify a species,
the necessary protections must be in place for at least five consecutive years, with assurances that the area preserves will remain
protected in perpetuity.

App. 26
petition asserted that there were significant increases
in the overall size of the harvestman’s range and
known of number of habitats. Second, new data indicates that the existence and magnitude of threats identified in the 1988 listing do not support the conclusion
that the species is at risk of extinction now or in the
foreseeable future. Third, significant local and state
conservation efforts and laws have helped to achieve
recovery of the harvestman.
The Service issued a 90-day finding, concluding
that delisting was not warranted. 80 Fed. Reg. 30,990
(June 1, 2015). On December 15, 2015, the Stewards
filed this suit challenging the 2015 90-day finding.
While the case was pending, the Service sought to voluntarily remand the case back to the Service to address an inadvertent clerical error in its decision,
namely, in failing to examine certain reference materials in making its decision. This court granted the remand.
In 2017, the Service rendered a second 90-day
finding, concluding that delisting was not warranted
based on the evidence presented in the original 2014
petition. 82 Fed. Reg. 20,861-02 (May 4, 2017).3 The
2017 finding supersedes the 2015 finding. 82 Fed. Reg.
at 20,863. The parties now contest the 2017 finding.
3

The delisting determination consists of several parts: (1)
the Service-published summary notice of its finding; (2) a more
detailed, signed notice of the same finding; and (3) the Petition
Review Form for Delisting a Listed Entity. For the purpose of this
order, the court will refer to the summary notice, detailed signed
notice, and petition review form collectively as the “2017 finding.”

App. 27
The evidence presented in the 2014 petition and the
Service’s response in the 2017 finding is summarized
below
Factor 1: Present or threatened destruction,
modification, or curtailment of the harvestman’s habitat or range
The primary threat to the harvestman identified
in 1988 was the potential loss of habitat because of
threats posed by urbanization and development. Much
of the evidence in the petition is intended to disprove
this threat.
The Stewards presents evidence of an increase in
known locations of the harvestman from five or six at
the time of the 1988 listing to 172 in 2014. This
amounts to an increase at a rate of 7.59 new sites discovered per year and a total population increase of
3,340 percent. The Stewards also presents evidence of
five caves that currently support the harvestman despite being located near developing areas, humans,
and tourist attractions, which were all identified as
threats to the survival of the species in 1988.
•

Inner Space Caverns: This cave is located under a highway and train track, receives about
100,000 visitors per year, and includes paved
walkways and electrical lighting. Surveys
done on the cave show a continued presence of
the harvestman despite heavy human traffic.

•

Sun City Caves: These caves are located near
a residential subdivision and regularly

App. 28
monitored. One survey found an increase in
fauna, and most surveys indicate that there
has not been a substantial negative change in
the population. Biologists continue to observe
the harvestman during their surveys of the
property.
•

Weldon Cave: The Service identified this cave
in the 1988 listing as a concern because of a
nearby road extension and residential development. In 1988, this cave was the only example given by the Service of the potentially
adverse effects of development on the harvestman. The cave has since been identified by the
Service as a sustainable habitat for the species.

•

Three-Mile and Four-Mile Caves: The petition
lists these caves as places where the harvestman persists despite being located underneath a highway. The interior of the walls are
covered in historic graffiti, which indicates a
steady stream of vandalism and human traffic
throughout the years.

The petition urges that, without affirmative evidence that development activities will lead to a significant reduction in the population size, the caves
provide compelling evidence that the harvestman has
continued to persist alongside development, contrary
to the Service’s conclusion at the time of listing.
The petition also presents some evidence documenting the use of “mesocaverns” by the harvestman—
a phenomenon that was not considered in the 1988 listing—as a potential habitat for the species. A

App. 29
mesocavern is a humanly impassable void that may or
may not be connected to larger cave passages. The discovery of mesocaverns as a habitat location is significant, the petition explains, because mesocaverns are
geologically protected from development and other activities occurring on the surface that threaten the harvestman’s habitat. The petition states that it is likely
that there are at least 125 square miles of habitable
mesocaverns.
In sum, the petition argues that current available
evidence demonstrates that the harvestman coexists
with development and human traffic. The petition
points out that no negative correlations have been
found between development and a decline in the harvestman population. Since impacts of development are
likely not as significant to the species as predicted by
the Service in the 1988 listing, the petition argues that
the harvestman should be delisted.
The Service begins its discussion of Factor 1 by restating that the primary threat to the harvestman is
still the potential loss of its habitat due to development
activities. The Service recognizes the five caves discussed in the petition. Nonetheless, the Service states
that the observation of the harvestman in these locations is not proof that they are thriving or can withstand the long-term impacts of development activities.
The Service acknowledges that it lacks adequate data
to conduct a species-trend analysis, given that it may
take decades to detect the harvestman’s population
trend because of small sample sizes, difficulty surveying the species, and its long life span. Nonetheless,

App. 30
the finding states that the petition does not provide
the Service with adequate information to detect population trends. After concluding that there is not enough
data to do a trend analysis, the Service addresses each
of the caves presented in the petition.
•

Inner City Space Caverns: The Service states
that although the harvestman may be present
at the caverns, their presence is not proof that
the harvestman’s population is robust and secure. The Service points out that, despite the
harvestman’s presence, the population may
still be declining and at risk from threats arising from development. The Service also observes that the cavern has an overgrowth of
algae that may out-compete the harvestman
for food. The Service further states that the
petition failed to provide enough data for the
Service to assess trends in the harvestman in
relation to the time that they have been exposed to artificial lighting in the cavern. The
Service further observes that part of the cavern is located under a highway and train
tracks, which both present a threat of contaminant spill that could impact the species in the
future.

•

Sun City Cave: The Service states that the petition failed to provide enough data for the
Service to assess the cumulative effect of the
development on the harvestman’s population
trend.

•

Weldon, Three-Mile, and Four-Mile Caves:
The Service points out that the Weldon cave is
surrounded by undeveloped space, not

App. 31
developed space, as the petition asserts. The
Service further states that detailed survey
data was not provided by the petitioners for
three or four-mile caves.
•

Mesocaverns: The Service states that it is unclear why the Stewards believes that mesocaverns are geologically protected from
surface activities. It points to a study that
mesocaverns are subject to rapid permeation
of surface water. As a result, the harvestman
would be as susceptible to groundwater contamination because water penetrates rapidly
through the rock in mesocaverns.

The finding additionally discusses a study conducted in 2007 that compares caves in urbanized areas
with caves in natural areas to bolster the finding’s conclusion about the effect of urbanization on the harvestman. The study found that, even though a small area
within a largely urbanized ecosystem may support a
cave community with karst invertebrates, karst populations are significantly lower than those found in
caves in more natural, less-developed ecosystems. The
study suggests that this is most likely a result of reduced nutrient input. The finding does not note
whether the harvestman was specifically considered in
the study. The finding also points to a study conducted
at Lakeline Cave in Travis County, that documents a
significant decline in another karst-invertebrate species over a 20-year time frame. During this same time
frame, no more than three examples of the harvestman
were observed in any one survey, and the harvestman
was not seen at all over six years and 12 surveys. The

App. 32
finding concludes that urbanization and human population growth and development continue to represent
a threat to the species, especially in light of the exploding population in the Austin area.
Factor 2: Disease or predation
In the 1988 finding, fire ants were identified by one
study as being a potential competitor with the harvestman. The study predicted that threats posed by fire
ants would be exacerbated as the human population
increased. The petition presents evidence that fire ants
have not been shown to have a lasting negative impact
on the harvestman populations nor on the ability of the
harvestman to persist in areas that contain fire ants.
Specifically, the petition includes a discussion of studies conducted since the 1988 listing, which suggest
that the impact to the harvestman by fire ants is greatest during and shortly after an initial fire-ant invasion,
and long-term impacts are likely not as significant as
once believed. The petition asserts this represents new
scientific information that refutes previous conclusions
drawn by the Service about the susceptibility of the
harvestman to fire-ant infestations. The petition also
presents evidence of specific locations in Texas where
there was not a decline in the harvestman despite the
presence of fire ants.
The Service recognizes the study, but notes that
the study also states that red fire ants likely did contribute directly or indirectly to the disappearance or
reduction in numbers of the harvestman and that the

App. 33
study should not be interpreted as an indication that
detrimental effects of invasive ants will simply disappear with time. The Service states that fire ants have
been observed within and near many caves in central
Texas. The Service finally notes that it previously considered the study cited by the petition.
Factor 3: Inadequacy of existing regulatory
mechanisms
In 1988, there were no laws in place to protect the
harvestman or its habitats. The petition identifies 94
caves that are now protected from development by
state and local regulations. The petition also details
extensive state, county, and city regulations that represent significant conservation efforts, including regulations by the City of Austin, City of Georgetown, and
the Texas Commission on Environmental Quality.
The Service recognizes the new regulations but
nonetheless concludes that there is not enough information in the petition to indicate whether or not the
state and local regulations provide enough protection
against all threats faced by the harvestman. For example, the Service states that the City of Austin ordinances do not meet karst-preserve design criteria4, do
not protect crickets (a food source for the harvestman),
do not include surface and subsurface drainage basins,
and do not protect the entire range of the harvestman’s
habitat. As for the City of Georgetown Water Quality
Management Plan, the Service points out that, because
4

See supra note 2.

App. 34
the purpose of the plan is designed to protect salamanders, the plan offers only limited benefit to the harvestman. The Service also observes that participation in
the Georgetown Plan is voluntary and that the petition
does not provide enough detail to evaluate all the benefits the plan would provide to the harvestman. As for
the Texas Commission on Environmental Quality
rules, the Service explains that it previously concluded
that the rules have limited benefit because they do not
regulate all caves inhabited by the harvestman.
Factor 4: Other natural or manmade factors
affecting continued existence
Though not originally identified in 1988, the Service has since identified climate change as a potential
threat to the harvestman. The Service acknowledges a
lack of evidence showing a direct correlation between
climate change and impact on the harvestman. The petition argues that studies indicate that the harvestman habitats in smaller and deeper mesocaverns may
mitigate the potential threat of climate change.
The Service addresses the likelihood that climate
change will affect the harvestman, and specifically, the
petition’s contention that the use of mesocaverns may
mitigate the threat of climate change. The Service
acknowledges that meso caverns may provide protection from climate change, but states that mesocaverns
will likely not be enough to ameliorate the effect of climate change on the harvestman. The Service identifies
specific dangers from climate change including

App. 35
increased storms, higher temperatures, and modifying
habitat or nutrient availability.
II.

STANDARD OF REVIEW

Summary judgment is appropriate if the record
shows “that there is no genuine issue as to any material fact and the moving party is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). In the context
of a challenge to an agency action under the Administrative Procedure Act (“APA”), “[s]ummary judgment is
the proper mechanism for deciding, as a matter of law,
whether an agency’s action is supported by the administrative record and consistent with the APA standard
of review.” Blue Ocean Inst. v. Gutierrez, 585 F. Supp.
2d 36, 41 (D.D.C. 2008). Thus, in evaluating a case on
summary judgment, the court applies the standard of
review from the APA. See Shell Offshore Inc. v. Babbitt,
238 F.3d 622, 627 (5th Cir. 2001); see also Tex. Oil &
Gas Ass’n v. EPA, 161 F.3d 923, 933 (5th Cir. 1998).
Under the APA, “[a]gency action made reviewable
by statute and final agency action for which there is no
other adequate remedy in a court are subject to judicial
review.” 5 U.S.C. § 704. A 90-day finding that delisting
is not warranted is subject to judicial review under the
Act. See 16 U.S.C. § 1533(b)(3)(C)(ii) (“Any negative
finding described in subparagraph (A) and any finding
described in subparagraph (B)(i) or (iii) shall be subject
to judicial review.”). In a challenge to agency action
brought pursuant to the APA, a court shall “hold unlawful and set aside agency action, findings, and

App. 36
conclusions found to be,” among other things, “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law; in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right; [or] without observance of procedure required by
law.” 5 U.S.C. § 706(2)(A)-(D).
When reviewing for arbitrariness and capriciousness, a court considers whether an agency has “examine[d] the relevant data and articulate[d] a satisfactory
explanation for its action including a ‘rational connection between the facts found and the choice made.’ Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983) (quoting Burlington Truck Lines, Inc. v. United States, 371 U.S. 156, 168
(1962)). Agency action is arbitrary and capricious when
“the agency has relied on factors which Congress has
not intended it to consider, entirely failed to consider
an important aspect of the problem, offered an explanation for its decision that runs counter to the evidence
before the agency, or is so implausible that it could not
be ascribed to a difference in view or the product of
agency expertise.” Id. The scope of review “is narrow
and a court is not to substitute its judgment for that of
the agency.” Id. Nor should the court “reweigh the evidence.” Cook v. Heckler, 750 F.2d 391, 392 (5th Cir.
1985). Instead, this court looks to “whether the decision was based on a consideration of the relevant factors and whether there has been a clear error of
judgment.” Judulang v. Holder, 565 U.S. 42, 53 (2011).
Even though arbitrary-and-capricious review is narrow, “courts retain a role, and an important one, in

App. 37
ensuring that agencies have engaged in reasoned decisionmaking.” Id.
In addition to a prohibition on arbitrary or capricious action, the APA prohibits agency action that is
“not in accordance with law,” 5 U.S.C. § 706(2)(A), or is
carried out without following procedures prescribed by
statute. See id. at § 706(2)(D); see also FCC v. Next
Wave Personal Communications Inc., 537 U.S. 293, 300
(2003) (“The Administrative Procedure Act requires
federal courts to set aside federal agency action that is
“not in accordance with law,” 5 U.S.C. § 706(2)(A)—
which means, of course, any law, and not merely those
laws that the agency itself is charged with administering.”). The court recognizes that Section 706(2)(A) has
four standards within it and considers in this opinion
whether the Service’s 90-day finding is “arbitrary, capricious, . . . or otherwise not in accordance with law.”
Id. at 706(2)(A).5
A. ARGUMENTS OF THE PARTIES
The Stewards moves for summary judgment on
the basis that the Service’s finding is arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law. See 5 U.S.C. § 706(2)(A). More
specifically, the Stewards argues that: (1) the Service
applied an unlawful and overly burdensome standard
of review in making its finding; (2) the Service unlawfully judged the petition based on whether it proved
5

The court’s analysis would not change were it to analyze
the 90-day finding under Section 706(2)(D).

App. 38
that criteria from the 1994 Recovery Plan had been
met; (3) the Service failed to consider claims in the petition that the harvestman was listed in error, as required by its own regulations; and (4) the Service
misapplied its regulations in making its finding.
The Service separately moves for summary judgment, arguing that its finding is not arbitrary and capricious.6 More specifically, the Service asserts that it
applied the correct standard and considered all appropriate information when it reviewed the petition. It
also contends that the Stewards has not met its burden
in showing that the Service’s denial of the petition is
so implausible that it could not be ascribed to a difference in view or the product of agency expertise. To that
end, the Service argues it rationally determined that
the petition failed to present substantial scientific or
commercial information.
The Center also moves for summary judgment, arguing that the Stewards has not met its burden in presenting substantial scientific information to indicate
that delisting of the species may be warranted. The
Center additionally argues that any doubts regarding

6

The Stewards, the Service, and the Center for Biological
Diversity (“the Center”) each move for summary judgment under
the APA. The motions address whether the Service’s finding is
arbitrary, capricious, or otherwise not in accordance with law.
The Service and the Center’s motions for summary judgment will
be considered together, as they make substantially the same argument. Yearwood, the Service, and the Center additionally move
for summary judgment based on the constitutionality of the Act.
See infra Section IV.

App. 39
the threats facing the harvestman must be construed
in its favor.
III.

ANALYSIS

The Stewards presents several arguments as to
why summary judgment should be granted in its favor,
but its most persuasive argument is that the Service
required a higher quantum of evidence than is permissible under the Act and implementing regulations governing a 90-day finding.
Upon review of the petition and the 2017 finding,
and for the reasons that follow, the court concludes
that the Service violated its regulations when it required the Stewards to essentially present conclusive
evidence about the harvestman’s population trends—
more evidence than the Service admits is available or
attainable. The Service’s regulations require a petition
to present only “available information,” and the Service committed a clear error in judgment and acted arbitrarily, capriciously, and not in accordance with law
when it called for more evidence than the law requires.
The court will vacate the 2017 finding and remand the
finding to the Service for further consideration of the
Stewards’ petition based on available population information, not population information that the Service
admits is impossible to attain.

App. 40
A. The Service violated its regulations governing the standard for reviewing a delisting
petition by requiring an unlawfully high
quantum of evidence.
In a challenge to agency action under the APA,
part of the court’s task involves “reviewing agency action to determine whether the agency conformed with
controlling statutes.” Baltimore Gas & Elec. Co. v. Natural Resources Defense Council, Inc., 462 U.S. 87, 97
(1983). Agency action that disregards applicable law is
arbitrary and capricious, and must be set aside. See,
e.g., Caring Hearts Pers. Home Servs., Inc. v. Burwell,
824 F.3d 968, 970-71 (10th Cir. 2016); Friends of
Richards-Gebaur Airport v. F.A.A., 251 F.3d 1178, 1195
(8th Cir. 2001) (“[A]n agency implementing a statute
may not ignore . . . a standard articulated in the statute.”). Agency regulations are an extension of the legislative process and bind the agency with the force and
effect of law. As with statutes, an agency must comply
with its own regulations, and the court must review an
agency’s actions to ensure conformity with relevant
regulations. See United States ex rel. Accardi v.
Shaughnessy, 347 U.S. 260, 266-68 (1954) (standing for
proposition that agencies must comply with their regulations); see also Erie Boulevard Hydropower, LP v.
Fed. Energy Regulatory Comm’n, 878 F.3d 258, 269
(D.C. Cir. 2017) (“It is axiomatic . . . that an agency is
bound by its own regulations.”); Nat’l Ass’n of Home
Builders v. Norton, 340 F.3d 835, 841, 852 (9th Cir.
2003) (upholding challenge under Section 706 of the
APA and finding that “[h]aving chosen to promulgate

App. 41
the [ ] policy, the [Service] must follow that policy”); Alamo Exp., Inc. v. United States, 613 F.2d 96, 97-98 (5th
Cir. 1980) (per curiam) (finding Interstate Commerce
Commission violated APA because it failed to comply
with internal procedures).
Under the Act, a petition must “present[ ] substantial scientific or commercial information indicating
that the petitioned action may be warranted.” 16 U.S.C.
§ 1533(b)(3)(A). The Service’s regulations in turn, define substantial information as “that amount of information that would lead a reasonable person to believe
that the measure proposed in the petition may be warranted.” 50 C.F.R. § 424.14(b)(1) (2014). The regulations further provide that a petition must “[c]ontain
detailed narrative justification for the recommended
measure, describing, based on available information,
past and present numbers and distribution of the species involved and any threats faced by the species.” Id.
at § 424.14(b)(2) (2014) (emphasis added). The Service
must make each listing determination “solely on the
basis of the best scientific and commercial data available.” 16 U.S.C. § 1533(b)(1)(A).
The petition presents extensive evidence that the
gravest threat to the harvestman identified in the 1988
listing—loss of habitat due to development—might not
be as grave as was predicted in 1988, and that reconsideration of the listing determination may be warranted. To support this contention, the petition
includes evidence that the population of the harvestman has steadily increased since the time of the listing—from five in 1988 to 172 as of 2014 despite an

App. 42
explosion in the human population. It also offers examples of five different caves in which the harvestman coexist with human visitors, highway disruptions, tourist
attractions, and industrial development, all of which
the 1988 finding predicted would endanger or eradicate the species. It presents evidence that the fire ant,
identified by some studies as a competitor with the
harvestman, may not threaten the harvestman’s food
source to the extent believed by the Service in 1988.
Finally, it presents evidence of overlapping regulatory
regimes that now provide protection for the harvestman, as compared to no regulatory protections in 1988.
In considering the Stewards’ petition, the Service
correctly articulates the standard required by its regulations, “[w]e evaluated this petition under the 50
CFR 424.14 requirements that were in effect prior to
October 27, 2016, as those requirements applied when
the petition and supplemental information were received.” The Service analyzed the five “listing factors,”
as the Act requires. The Service determined that the
evidence presented in the petition is not enough for the
Service to conclude that delisting may be warranted.
The Service came to this decision after conducting an
overall assessment of the viability of the harvestman
and threats to its continued existence. However, the
finding recognizes that there is currently no available
data on the overall population trend of the harvestman. The finding also recognizes that, although population-trend information is likely impossible to attain,
it is nonetheless essential to proving that the harvestman’s population is not declining or threatened

App. 43
because of urbanization. For example, the finding
stated that “[i]t may be infeasible to assess karst invertebrate population trends in any statistically significant manner given their association with humanly
inaccessible cave habitat such as mesocaverns.” Indeed, the harvestman is so elusive that the Service requires 14 different surveys of a cave to determine to its
satisfaction whether the harvestman is present. And
yet, when presented with actually available evidence
that the harvestman exists and continues to populate
near developing areas, the Service discounts this evidence, stating at least four times that the petition
“failed to provide data adequate to assess trends.” The
Service stated that the harvestman “may be declining
or threatened even though they are observed at a . . .
site. The petition did not provide adequate information
to detect population trends . . . and it is not available
from other sources. . . . [w]e indicated in the [1994 90day [finding] that more time was needed to detect if the
species is declining; however . . . we are still lacking
adequate data to conduct a trend analysis.” The Service also makes that “the petition failed to provide data
adequate to assess trends in the karst invertebrate
populations since the development occurred,” and also
that “the petition failed to provide any data adequate
to assess trends in the karst invertebrate population
in relation to the time (duration and frequency) that
[the harvestman has] been exposed to the artificial
lighting.” As for climate change, the Service states that
“the petition provided no trend analysis to indicate
that this species can withstand the threats associated
with development or climate change over the long

App. 44
term.” This lack of conclusive population data led the
Service to conclude that the petition did not present
enough information to demonstrate that delisting may
be warranted.
By requiring evidence that the Service admits is
either infeasible to collect or totally unavailable, the
Service makes it all but impossible for the Stewards to
disprove the essential assumption of the 1988 listing—
that the harvestman would decline as the population
increases because of dangers to its habitat—and thus,
makes the case for delisting the harvestman impossible. Rather than considering whether the information
presented in the petition may indicate that delisting is
warranted, the Service requires conclusive evidence
that the overall population of the harvestman did not
decline as human population and development increased. The Service disputes this point and argues
that the petition was not denied because of a lack of
population-trend data, but that the Service denied the
petition after the Service conducted an overall assessment of the viability of the harvestman and threats to
the harvestman’s continued existence. Nonetheless, after review of the finding, this court concludes that the
bulk of the evidence presented in the petition was discounted because it was not accompanied by overallpopulation-trend data.
The court concludes that denying the petition because the petition lacks admittedly unavailable evidence, the Service did not make its decision based on
the best available data, in violation of the Act and implementing regulations. See 16 U.S.C. § 1533(b)(1)(A)

App. 45
(“Listing determinations” must be made “solely on the
basis of the best scientific and commercial data available”); 50 C.F.R. § 424.14(b)(2) (2014) (petition must describe “based on available information, past and
present numbers and distribution of the species involved and any threats faced by the species”). In reaching this conclusion, the court recognizes that the
evidence presented in the petition is not conclusive
proof that the species is actually increasing or that an
increase in human population will not detrimentally
affect the harvestman’s habitat. The court concludes
only that that the evidence presented in the petition
meets the low evidentiary threshold set forth in the Act
and implementing regulations for a 90-day finding—
that delisting of the harvestman may be warranted.
The Service may determine after a more searching inquiry whether the harvestman is, in fact, increasing,
and whether delisting of the species definitively is or
is not warranted. See 16 U.S.C. § 1533(b)(3)(B).
B. The Service’s violation of the Act and implementing regulations is arbitrary, capricious, and not in accordance with law.
Under the APA, a court must set aside an agency
decision that is “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5
U.S.C. § 706(2)(A). The APA requires an agency to “examine the relevant data and articulate a satisfactory
explanation for its action including a ‘rational connection between the facts found and the choice made.’ ”
State Farm, 463 U.S. at 43. When reviewing for

App. 46
arbitrariness or capriciousness, this court looks to
“whether [an agency’s] decision was based on a consideration of the relevant factors and whether there has
been a clear error of judgment.” Judulang, 565 U.S. at
53. Even though arbitrary and capricious review is
narrow, “courts retain a role, and an important one, in
ensuring that agencies have engaged in reasoned decisionmaking.” Id. In determining whether the Service
has engaged in “reasoned decisionmaking” this court
considers what is required of the agency by the Act and
implementing regulations, which provide the evidentiary lens through which the agency is to “examine relevant data.” State Farm, 463 U.S. at 43.
Many courts have concluded that an agency’s failure to comply with its own regulations is arbitrary and
capricious. See, e.g., Erie Boulevard Hydropower, 878
F.3d at 269 (“[I]f an agency action fails to comply with
its regulations, that action may be set aside as arbitrary and capricious.”); Nat’l Envtl. Dev. Assoc.’s Clean
Air Project v. E.P.A., 752 F.3d 999, 1009 (D.C. Cir. 2014)
(holding that an “agency is not free to ignore or violate
its regulations” and “an agency action may be set aside
as arbitrary and capricious if the agency fails to ‘comply with its own regulations”). Other courts have concluded that an agency’s failure to comply with its own
regulations is “not in accordance with law.” See, e.g.,
Calderon v. Sessions, 330 F. Supp. 3d 944 (S.D.N.Y.
Aug. 1, 2018) (citing 5 U.S.C. § 706(2)(A)); Koshman v.
Vilsack, 865 F. Supp. 2d 1083, 1095 (E.D. Cal. 2012)
(challenge that agency did not abide by its own

App. 47
regulations and governing statutes and concluding
that agency’s decision is “not in accordance with the
law”).
The court finds that the Service did not engage in
“reasoned decisionmaking” when it did not follow the
standard set by Congress and implementing regulations intended to guide the Service’s decisionmaking.
The court concludes that the petition presents available, substantial scientific and commercial information
indicating that delisting of the harvestman may be
warranted. As a result, the court concludes that the
Service’s conclusion to the contrary is arbitrary, capricious, “or otherwise not in accordance with [the Act and
implementing regulations],” which require that a petition need only present available evidence. 5 U.S.C.
§ 706(2)(A).7 The court will vacate the 2017 finding and
remand the finding to the Service for further consideration of the Stewards’ petition based on available population information, not population information that
the Service admits is impossible to attain. See Chamber of Commerce of United States of Am. v. United
States Dep’t of Labor, 885 F.3d 360, 388 (5th Cir. 2018),
judgment entered sub nom. Chamber of Commerce of
Am. v. United States Dep’t of Labor, No. 17-10238, 2018
7

The Stewards additionally contends that the 2017 finding
is arbitrary and capricious because the Service unlawfully relies
on the recovery plan and karst-preserve design recommendations
as necessary evidence of whether the harvestman has recovered
and necessitates delisting. Because the court concludes that the
finding is arbitrary and capricious on other grounds, the court
need not consider the argument that the use of the recovery plan
as binding is unlawful.

App. 48
WL 3301737 (5th Cir. June 21, 2018) (vacating rule
found to be arbitrary, capricious, and not in accordance
with law); see also N. Carolina Fisheries Ass’n, Inc. v.
Gutierrez, 550 F.3d 16, 20 (D.C. Cir. 2008) (“[W]hen a
court reviewing agency action determines that an
agency made an error of law . . . the case must be remanded to the agency for further action consistent
with the corrected legal standards.”).
C. The Service considered whether the harvestman was listed in error.
Delisting is also appropriate under the Service’s
regulations if “[s]ubsequent investigations may show
that the best scientific or commercial data available
when the species was listed, or the interpretation of
such data, were in error.” 50 C.F.R. § 424.11(d)(3)
(2014).
The 1988 listing identifies the primary threat to
the harvestman as potential loss of habitat because of
ongoing development activities. The Stewards’ petition
states that the discovery of many previously unknown
populations of the harvestman arguably demonstrates
that the 1988 listing was in error because more species
have been discovered as development increases. The
Stewards argues that the record is devoid of any evidence that the Service evaluated whether the original
listing was in error. This argument is not supported by
the record.
The finding expressly considers whether the original listing was erroneous. The finding states that a

App. 49
review of the petition does not indicate that the original classification was made in error. The Service concludes “[b]ased on our review and evaluation . . . the
petition does not present substantial scientific or commercial information indicating that the delisting of the
harvestman may be warranted due to . . . error in the
original scientific data at the time the species was classified or in our interpretation of that data.” For example the Service indicates that “species may be delisted
when subsequent investigations ‘show that the best
scientific and commercial data available when the species was listed, or the interpretation of such data, were
in error.’ ” The Service also considered the petition’s assertion “that threats to the species are not as severe as
originally thought . . . [w]e evaluate that information,
below, with respect to the five listing factors.” In light
of the record, the court concludes that the Service did
consider whether the original listing was in error.
The Stewards also disagrees with the substance of
the Service’s determination that the original listing
was not in error. Very little was known about the harvestman at the time of the 1988 listing. The 1988 listing is based on a handful of studies on similar species,
their food sources, and the potential effects of human
development on the species. At the time of listing, neither the Service nor scientists were aware that the harvestman was a distinct species, and the listing is not
specific to the harvestman. Nonetheless, the primary
threat identified is the potential loss of habitat due to
ongoing human development. The petition posits that
the discovery of previously unknown populations of the

App. 50
harvestman arguably demonstrates that the 1988 listing was in error. The court is not persuaded. The regulations governing whether a listing was in error are
backward looking, and the court looks to whether subsequent information reveals that “data available when
the species was listed . . . were in error” at the time of
listing. 50 C.F.R. § 424.11(d)(3) (2014). The discovery of
previously unknown populations of the harvestman
does not demonstrate that the data on which the original listing is based was erroneous at the time of the
1988 listing. Limited information available about the
species at the time indicated that the habitats of the
harvestman would be threatened by changes arising
from human population increases and development.
Information now available indicates that threat may
not be as grave as initially predicted and that delisting
may be warranted. The Service will consider this on
remand. The court rejects the Stewards argument of
error in the 1988 listing.
IV.

PLAINTIFF-INTERVENORS’ MOTION
FOR SUMMARY JUDGMENT

Yearwood moves separately for summary judgment under the APA, arguing that Congress has exceeded its constitutional authority under the
Commerce Clause, the Necessary and Proper Clause,
and Tenth Amendment by regulating the “take” of the
harvestman. See U.S. Const. art. I, § 8, cl. 3; U.S. Const.
art. I, § 8, cl. 18; U.S. Const. Amend. X; see also 16 U.S.C.
§ 1538(a)(1)(B) (prohibiting the “take” of certain

App. 51
endangered species).8 Yearwood is supported by the
State of Texas and Mountain States Legal Foundation,
both of whom submitted amicus curiae briefs in support of Yearwood’s motion for summary judgment.
The Service and the Center cross-move for summary judgment, arguing that Yearwood’s claims are
barred by the applicable statute of limitations.9 In the
alternative, the Service argues that Yearwood’s constitutional arguments is foreclosed in this circuit because
regulating takes of the harvestman under the Act is a
valid exercise of the Commerce Clause power. See GDF
Realty Invs., Ltd. v. Norton, 326 F.3d 622 (5th Cir.
2003), reh’g denied, 362 F.3d 286 (5th Cir. 2004). The
Service also contends that the Congress’s regulation of
takes is consistent with the Necessary and Proper
Clause and the Tenth Amendment. See U.S. Const. art.
I, § 8, cl. 18; U.S. Const. Amend. X.

8

A “take” is defined as harassing, harming, pursuing, hunting, shooting, wounding, killing, trapping, capturing, collecting,
or attempting to engage in any such conduct. Id. at § 1532(19).
Property owners and developers must seek permits from the
Service for approval of any activities that might disturb an endangered species. Id. at § 1539(a). The consequences of an unauthorized take can be serious, including civil and criminal
penalties, fines as great as $50,000, and imprisonment for up to
one year. Id. at § 1540.
9
The arguments of the Service and the Center are substantively similar, and the court will refer to the arguments made by
both as the Service’s arguments, unless otherwise noted or as
needed for context.

App. 52
A. Yearwood’s claims are not barred by the statute of limitations, but Williamson County’s
claims are barred.
Under the APA, a reviewing court shall “hold unlawful and set aside agency action, findings, and conclusions found to be . . . not in accordance with law [or]
contrary to a constitutional right, power, privilege, or
immunity.” 5 U.S.C. § 706(2)(A)-(B). Because the APA
lacks a specific statutory limitations period, challenges
brought under the APA are “governed by the general
statute of limitations provision of 28 U.S.C. § 2401(a),
which provides that every civil action against the
United States is barred unless brought within six
years of accrual.” Dunn-McCampbell Royalty Interest,
Inc. v. Nat’l Park Serv., 112 F.3d 1283, 1286 (5th Cir.
1997); see also 28 U.S.C. § 2401(a) (“[E]very civil action
commenced against the United States shall be barred
unless the complaint is filed within six years after the
right of action first accrues.”).
In determining when a right of action accrues, the
law distinguishes between a “facial challenge” to a regulation and a challenge to a regulation after an agency
applies that regulation to a plaintiff. See Dunn, 112
F.3d at 1287. “On a facial challenge to a regulation, the
limitations period begins to run when the agency publishes the regulation.” Id. The Dunn court, declined to
rule on the merits of a plaintiff ’s facial claim “that
the regulations exceeded National Park Service authority under the Padre Island National Seashore
Act” because the plaintiff “failed to mount a facial challenge to the regulations within six years of their

App. 53
publication.” Id. Nonetheless, the court concluded that
the regulation could be challenged “after the limitations period has expired, provided that the ground for
the challenge is that the issuing agency exceeded its
constitutional or statutory authority.” Id. To sustain
such a claim, an agency must apply the rule to the
plaintiff such that the plaintiff can “show some direct,
final agency action.” Id. Final agency action includes a
plaintiff petitioning an agency for relief from a regulation. Id. (citing Wind River Mining Corp. v. United
States, 946 F.2d 710, 715–16 (9th Cir. 1991); Public Citizen v. Nuclear Regulatory Com’n, 901 F.2d 147, 152-53
(D.C. Cir. 1990)). It also includes an agency issuing an
order requiring a plaintiff to comply with a regulation.
Dunn, 112 F.3d at 1287 (citing Texas v. United States,
730 F.2d 409, 411–12 (5th Cir. 1984)). Thus, “an
agency’s application of a rule to a party creates a new
six-year cause of action to challenge to the agency’s
constitutional or statutory authority.” Dunn, 112 F.3d
at 1287.
In addition, “agency action must mark the consummation of the agency’s decisionmaking process—it
must not be of a merely tentative or interlocutory nature.” U.S. Army Corps of Engineers v. Hawkes Co., ___
U.S. ___, 136 S.Ct. 1807, 1813 (2016) (quoting Bennett
v. Spear, 520 U.S. 154, 177–78 (1997). Agency action
marks the consummation of agency decisionmaking if
it is not “advisory in nature” but is instead “definitive
[in] nature.” Id. at 1813–14. The action must also be
one by which rights or obligations have been determined, or from which legal consequences will flow, and

App. 54
thus, must “give rise to ‘direct and appreciable legal
consequences.’ ” Id. at 1814 (quoting Bennett, 520 U.S.
at 178).
The court concludes that Yearwood’s challenge is
not barred by the limitations because he is a party to
the 2014 petition to delist the harvestman and is directly affected by the Service’s decision not to delist the
harvestman. Yearwood can demonstrate the requisite
“direct, final agency action” affecting him personally
and may challenge the Service’s statutory and constitutional authority for applying the rule. Dunn, 112
F.3d at 1287. Accordingly, the court concludes that
Yearwood’s constitutional challenges are not barred by
the statute of limitations.
As Yearwood concedes, however, Williamson
County is not a party to the 2014 petition to delist the
harvestman. The County nonetheless claims that it
has suffered similar injuries to those suffered by Yearwood and other parties who filed the petition and
should not be barred by limitations. The County marshals to no legal support for this proposition. Because
the County is not a party to the 2014 petition, it cannot
show the requisite direct and final action that flows
from the denial of Yearwood’s petition. The County’s
claims are barred by limitations.
B. The Service’s regulation of the harvestman
takes does not violate the Commerce Clause.
Under the Commerce Clause, Congress may “regulate Commerce . . . among the several States,” U.S.

App. 55
Const. art. I, § 8, cl. 3, including regulating activities
that “substantially affect interstate commerce.” United
States v. Lopez, 514 U.S. 549, 558–59 (1995); United
States v. Morrison, 529 U.S. 598, 609–12 (2000). Additionally, an intrastate activity may be regulated if it is
“an essential part of a larger regulation of economic activity, in which the regulatory scheme could be undercut unless the intrastate activity were regulated.”
Lopez, 545 U.S. at 561; Morrison, 529 U.S. at 657.
In reviewing an act passed under Congress’s Commerce Clause authority, the court applies a rationalbasis analysis, under which courts “need not determine
whether . . . activities, taken in the aggregate, substantially affect interstate commerce in fact, but only
whether a ‘rational basis’ exists for so concluding.”
Gonzales v. Raich, 545 U.S. 1, 22 (2005) (quoting Lopez,
514 U.S. at 557); see also GDF Realty, 326 F.3d at 627.
Yearwood disputes that this court should review the
Act under a rational-basis standard. Yearwood’s primary argument is that Supreme Court and Fifth
Circuit cases altered the landscape for evaluating regulations of non-commercial intrastate activity “from a
traditional Commerce Clause analysis,” which is scrutinized for a rational basis, to one that is analyzed under the Necessary and Proper Clause, U.S. Const. art.
I, § 8, cl. 18, with a higher level of scrutiny. See Raich,
545 U.S. at 34; Nat’l Fed’n of Indep. Bus. v. Sebelius, 567
U.S. 519, 562–74 (2012); St. Joseph Abbey v. Castille,
712 F.3d 215 (5th Cir. 2013); United States v. Whaley,
577 F.3d 254, 260–61 (5th Cir. 2009). Yearwood asserts
that the Necessary and Proper Clause requires that

App. 56
regulations be (1) “narrow in scope,” (2) “incidental” to
the regulation of commerce, and (3) cannot “work a
substantial expansion of federal authority.” Sebelius,
567 U.S. at 560–61.
a. GDF Realty Investments, Ltd. v. Norton
Regulation of a take of the harvestman is a valid
exercise of the Commerce Clause power. GDF Realty,
326 F.3d at 622. In GDF Realty, a group of developers
challenged the harvestman’s listing determination, arguing that the Act’s take provision as applied to the
harvestman was unconstitutional. Like Yearwood, the
developers argued that the take provision exceeded
Congress’s Commerce Clause authority because a take
of the harvestman has no relationship to interstate
commerce. Id. at 626. The court analyzed the Act and
the listing provision under the Lopez and Morrison
framework, and concluded that the Act is a general
regulatory statute that is economic in nature and has
a substantial relation to commerce. Id. at 640 (citing
Lopez, 545 U.S. at 561; Morrison, 529 U.S. at 657).
Though takes of the harvestman by themselves do not
have an effect on interstate commerce, the court concluded that regulating intrastate takes is an essential
part of the Act as a whole. Id. Thus, the application of
the Act to the harvestman “is a constitutional exercise
of the Commerce Clause power.” Id. at 641.
Yearwood recognizes GDF Realty but argues that
its mode of analysis has been overruled by subsequent
cases. See Raich, 545 U.S. at 34; Sebelius, 567 U.S. at

App. 57
562–74; Castille, 712 F.3d at 215; Whaley, 577 F.3d at
260–61. Yearwood contends that the GDF Realty court
applied a “deferential” version of rational-basis scrutiny to claims under the Commerce Clause in GDF Realty. Yearwood asserts that Raich, Sebelius, and
Whaley altered the applicable test for evaluating regulations of non-commercial intrastate activity “from a
traditional Commerce Clause analysis,” analyzed under rational-basis scrutiny, to one that more closely
scrutinizes regulations under the Necessary and
Proper Clause. Thus, Yearwood asks this court ignore
the holding of GDF Realty and look anew at the regulation of the harvestman takes in light of Raich, Sebelius, and Whaley.
b. Gonzalez v. Raich and United States v. Whaley
Yearwood argues that a concurring opinion Raich
altered the analysis for intrastate activities that have
a substantial effect on interstate commerce. Raich, 545
U.S. at 34 (Scalia, J., concurring) (“Congress’s regulatory authority over intrastate activities that are not
themselves part of interstate commerce (including activities that have a substantial effect on interstate
commerce)” should “derive[ ] from the Necessary and
Proper Clause.”). Id. The majority in Raich, however
analyzed the case under Lopez and Morrison and applied a rational-basis test in reviewing non-commercial intrastate activities that have a substantial effect
on interstate commerce. Id. at 22. The majority did not
separately analyze the case under the Necessary and
Proper Clause.

App. 58
Yearwood additionally contends that the circuit
adopted Raich’s concurring opinion in United States v.
Whaley. 577 F.3d at 260. Whaley involved a challenge
to the Sex Offender Registration and Notification Act
that the court upheld as a valid regulation of activities
under the Commerce Clause. Id. at 258. After upholding the statute under the Commerce Clause, the court
stated “to the extent that [the statute] applies to sex
offenders remaining intrastate, the Necessary and
Proper Clause provides Congress with the necessary
authority.” Id. at 260–61 (citing Raich, 545 U.S. at 35–
37 (Scalia, J., concurring)).
The Fifth Circuit “follows the rule that alternative
holdings are binding precedent and not obiter dictum.”
Texas v. United States, 809 F.3d 134,178 n.158 (5th Cir.
2015) (quoting United States v. Potts, 644 F.3d 233, 237
n.3 (5th Cir. 2011)), aff ’d by an equally divided Court,
___ U.S. ___, 136 S.Ct. 2271 (2016); see also United
States v. Reyes-Contreras, No. 16-41218, ___ F.3d ___,
n.19, 2018 WL 6253909, at *7 n.19 (5th Cir. Nov. 30,
2018) (en Banc). This court does not find that Whaley’s
brief, two-paragraph discussion of the Necessary and
Proper Clause, is an “alternative holding” as opposed
to additional reasoning. Assuming, arguendo, that
Whaley’s discussion is an alternate holding, the court
nonetheless concludes that Whaley’s alternative invocation of the Necessary and Proper Clause to analyze
instrumentalities and channels of interstate commerce
does not overrule GDF Realty. Whaley does not mention GDF Realty, and as such, does not unequivocally
overrule the holding or analysis of GDF Realty.

App. 59
Moreover, the circuit did not reference Whaley nor apply a Necessary and Proper Clause analysis when it
most recently upheld the constitutionality of the Act’s
critical-habitat-designation provision under the Commerce Clause. See Markle Interests, L.L.C. v. United
States Fish & Wildlife Serv., 827 F.3d 452, 459 (5th Cir.
2016), vacated and remanded sub nom. Weyerhaeuser
Co. v. U.S. Fish & Wildlife Serv., ___ U.S. ___, 139 S. Ct.
361 (2018), and cert. granted, judgment vacated on
other grounds sub nom. Markle Interests, L.L.C. v. U.S.
Fish & Wildlife Serv., No. 17-74, 139 S. Ct. 50 (Dec. 3,
2018). Instead, the circuit applied the majority’s analysis in Raich and discussed the reasoning and holding
of GDF Realty. Id. at 477–78.
This court recognizes that the Supreme Court vacated the judgment in Markle in light of Weyerhaeuser,
but the Court did so on other grounds.10 Though Markle no longer holds precedential value, this court finds
persuasive its reasoning on the Commerce Clause, because Markle is the most recent and directly applicable
10

Two separate petitions for a writ of certiorari were filed in
Markle. The Court granted the petition of Weyerhaeuser Company, which primarily raised an issue of statutory construction of
the Act’s critical-habitat-designation provision. See Weyerhauser
Co. v. U.S. Fish and Wildlife Serv., No. 17-71, ___ U.S. ___, 138
S. Ct. 924 (Jan. 22, 2018). The petition of Markle Interests, LLC;
P&F Lumber Company 2000, LLC; and PF Monroe Properties
LLC presented a question about whether Congress exceeded its
authority under the Commerce Clause in regulating intrastate
critical habitats. The Court held Markle’s petition, granted it, and
vacated the judgment, and remanded the case for further consideration in light of Weyerhaeuser. Markle Interests, L.L.C. v. U.S.
Fish & Wildlife Serv., No. 17-74, 139 S. Ct. 50 (Dec. 3, 2018).

App. 60
articulation by the Fifth Circuit on how the court analyzes intrastate activities regulated by the Act under
the Commerce Clause. The Court in Weyerhaeuser did
not consider the constitutionality of the Act’s criticalhabitat-designation provision under the Commerce
Clause, nor whether such a question should be analyzed under the Necessary and Proper Clause. Instead,
Weyerhaeuser involved a question of statutory interpretation of the critical-habitat provision of the Act.11
Yearwood finally asserts that Supreme Court in
Sebelius “found that the Affordable Care Act could not
be justified by the Commerce Clause when viewed
through the Necessary and Proper Clause.” Yearwood
repeatedly, but improperly, refers to a solo concurrence
in Sebelius as the Court’s holding. The majority decided the case based on Congress’s taxing power, not
on the Necessary and Proper Clause. 567 U.S. at 538539, 564–74. Accordingly, the court does not find Yearwood’s invocation of a concurring opinion in Sebelius to
be persuasive authority.
In sum, this court recognizes that Raich and
Whaley mention the Necessary and Proper Clause.
However, these passing references are not enough to
shift the well-established Commerce Clause analysis—one the Fifth Circuit has twice applied in
11

More specifically, the Court granted certiorari to consider
whether a critical habitat need be currently habitable; the Fifth
Circuit held it did not. Weyerhaeuser, 139 S. Ct. at 364. The Supreme Court also granted certiorari to consider whether the Service’s decision to exclude an area as a critical habitat is subject to
judicial review; Fifth Circuit held that it is not. Id.

App. 61
considering the constitutionality of the Act—to one
that has not been adopted by a majority of the Supreme Court nor by the Fifth Circuit in a factually
analogous case.12 Accordingly, the court will continue
to follow GDF Realty and concludes that the Service’s
regulation of the harvestman does not violate the Commerce Clause.
C. TENTH AMENDMENT
Yearwood argues that Congress’s regulation of the
harvestman violates the Tenth Amendment, but devotes no briefing to the issue. U.S. Const. Amend. X.
“Arguments that are insufficiently addressed in the
body of the brief, however, are waived.” See Bridas
S.A.P.I. C. v. Gov’t of Turkmenistan, 345 F.3d 347, 356
n.7 (5th Cir. 2003) (citing Quick Techs., Inc. v. Sage
Group PLC, 313 F.3d 338, 343 n.3 (5th Cir. 2002)) (“Arguments raised in a perfunctory manner, such as in a
12

Yearwood also asserts that the rational-basis test applied
in GDF Realty “is no longer sufficient in this circuit” because the
“Fifth Circuit has since rejected this no-evidence approach to rational-basis scrutiny in other contexts.” See, e.g., Castille, 712
F.3d at 223 (“Our analysis does not proceed with abstraction for
hypothesized ends and means do not include post hoc hypothesized facts.”). Castille analyzes the constitutionality of a state casket regulation under the Due Process and Equal Protection
Clauses of the Fourteenth Amendment, to determine whether the
regulation has a rational connection to the state’s police powers.
Castille, 712 F.3d at 221–22. In so doing, the Court states that “a
hypothetical rationale, even post hoc, cannot be fantasy.” Id. at
223. However, Castille does not involve a Commerce Clause challenge and cannot stand for a broad refashioning of the test used
in Commerce Clause challenges, as Yearwood asserts.

App. 62
footnote, are waived”). Accordingly, the court concludes
that Yearwood waived this argument.
V.

CONCLUSION

The court concludes the 2017 finding is arbitrary,
capricious, and not in accordance with law. When a reviewing court concludes an agency action to have been
carried out “without observance of procedure required
by law,” the court shall “hold unlawful and set aside”
the action. 5 U.S.C. § 706. Accordingly,
IT IS ORDERED that Plaintiffs’ Motion for Summary Judgment filed October 5, 2017 (Dkt. No. 132) is
GRANTED with regard to the Stewards’s claim that
the Service acted arbitrarily and capriciously. The
court will vacate the 2017 finding and remand the 2017
finding to the Service for further consideration consistent with this opinion. In all other respects, the motion is DENIED.
IT IS FURTHER ORDERED that Federal Defendants’ Cross Motion for Summary Judgment filed
December 15, 2017 (Dkt. Nos. 142) is GRANTED as to
its argument that the Service considered whether the
harvestman was listed in error. In all other respects,
the motion is DENIED.
IT IS FURTHER ORDERED that DefendantIntervenors’ Cross-Motion for Summary Judgment
and Opposition to Plaintiffs’ Motion for Summary
Judgment filed December 21, 2017 (Dkt. No. 147) is
DENIED.

App. 63
IT IS FURTHER ORDERED that Plaintiff-Intervenors’ Motion for Summary Judgment filed October 10, 2017 (Dkt. No. 133) is GRANTED to the
following extent: Yearwood’s arguments are not barred
by the statute of limitations. In all other respects, the
motion is DENIED.
IT IS FURTHER ORDERED that Federal Defendants’ Cross-Motion for Summary Judgment filed
December 15, 2017 (Dkt. Nos. 145) and Defendant-Intervenors’ Cross-Motion for Summary Judgment filed
December 22, 2017 (Dkt. Nos. 151) are GRANTED to
the following extent: Congress’s regulation of a “take”
of the harvestman under the Act is a valid exercise of
the Commerce Clause power. In all other respects, the
motions are DENIED.
IT IS FINALLY ORDERED that Federal Defendants’ Opposed Motion to Strike Four Exhibits Attached to Plaintiffs’ Reply Brief [Dkt. Nos. 156-6, 1567, 156-8, 156-9 & 157-6, 1577, 157-8, 157-9] and Memorandum in Support filed February 16, 2018 (Dkt. No.
159) is DISMISSED, as the court did not consider
these exhibits.
SIGNED this 28th of March, 2019.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES
DISTRICT JUDGE

App. 64
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-50321
-----------------------------------------------------------------------

AMERICAN STEWARDS OF LIBERTY;
CHARLES SHELL; CHERYL SHELL; WALTER
SIDNEY SHELL MANAGEMENT TRUST;
KATHRYN HEIDEMANN; ROBERT V. HARRISON,
Plaintiffs
JOHN YEARWOOD; WILLIAMSON COUNTY,
TEXAS,
Intervenor Plaintiffs - Appellants - Cross
Appellees,
v.
DEPARTMENT OF INTERIOR; UNITED STATES
FISH AND WILDLIFE SERVICE; DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF THE
INTERIOR, in his official capacity; MARGARET E.
EVERSON, in her official capacity as Director of the
U.S. Fish and Wildlife Service; AMY LUEDERS, in
her official capacity as the Southwest Regional
Director of the U.S. Fish and Wildlife Service,
Defendants - Appellees-Cross Appellants
CENTER FOR BIOLOGICAL DIVERSITY; TRAVIS
AUDUBON; DEFENDERS OF WILDLIFE,
Intervenor Defendants - Appellees

App. 65
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Western District of Texas.
-----------------------------------------------------------------------

ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Filed Jul. 28, 2020)
(Opinion 5/29/20, 5 Cir., American Stewards of Liberty
v. Department of the Interior, 960 F.3d 223)
Before STEWART, DENNIS, and HAYNES, Circuit
Judges.
PER CURIAM:
(X) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.
( ) A member of the court in active service having requested a poll on the reconsideration of this cause
en banc, and a majority of the judges in active

App. 66
service and not disqualified not having voted in favor, Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ James L. Dennis
UNITED STATES CIRCUIT JUDGE

